HHS/OIG-Audit--"The Use of Trusts by Medicaid and Supplemental Security
Income Recipients Receiving Third Party Liability Settlements and Awards, (A-09-93-00033)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"The Use of Trusts by Medicaid and Supplemental Security Income Recipients
Receiving Third Party Liability Settlements and Awards," (A-09-93-00033)
October 31, 1994
Complete
Text of Report is available in PDF format (2.67 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out how trusts are used to shelter assets and
prevent Medicaid from being reimbursed medical costs of recipients receiving
third party liability settlements and awards. Thirty-six State agencies disclosed
that trusts were used by Medicaid and Supplemental Security Income (SSI) recipients
to shelter assets. The agencies also reported that the use of these trusts
was growing. Although we were unable to determine the financial impact of these
trusts on Medicaid nationally, the impact on Medicaid of just 25 such trusts
in California was significant--$3 million in unrecovered program costs. We
recommended that the Health Care Financing Administration propose legislative
amendments to address this issue. The HCFA agreed that current law contains
certain loopholes and that it could recommend to the Congress provisions to
close such loopholes in the legislation.